APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Entry in The Supreme Court of Ohio
(January 22, 2021) . . . . . . . . . . . . App. 1
Appendix B Journal Entry in The Court Of
Common Pleas, Cuyahoga County,
Ohio
(March 28, 2019) . . . . . . . . . . . . . . App. 2
Appendix C Journal Entry and Opinion in the
Court of Appeals of Ohio, Eighth
Appellate District, County of
Cuyahoga (August 6, 2020) . . . . App. 16
Appendix D Journal Entry in the Court of Appeals
of Ohio, Eighth District
(September 22, 2020) . . . . . . . . . App. 35

App. 1

APPENDIX A
THE SUPREME COURT OF OHIO
Case No. 2020-1351
[Filed: January 22, 2021]
____________________________________
STATE OF OHIO
)
)
v.
)
)
DANIEL DEUBLE
)
)
____________________________________)
ENTRY
Upon consideration of the jurisdictional memoranda
filed in this case, the court declines to accept
jurisdiction of the appeal pursuant to S.Ct.Prac.R.
7.08(B)(4)
(Cuyahoga County Court of Appeals; No. 108814)
/s/ Maureen O’Connor
Maureen O’Connor
Chief Justice

The Official Case Announcement can be found at
http://www.supremecourt.ohio.gov/ROD/docs/

App. 2

APPENDIX B
IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
Case No: CR-18-632279-A
Judge: JOHN P O’DONNELL
[Filed: March 28, 2019]
____________________________________
STATE OF OHIO
)
Plaintiff
)
)
DANIEL DEUBLE
)
Defendant
)
____________________________________)
INDICT:

2907.04 ATTEMPTED, UNLAWFUL
SEXUAL CONDUCT WITH MINOR
2907.07 IMPORTUNING
2907.31 DISSEMINATING MATTER
HARMFUL TO JUVENILES
ADDITIONAL COUNTS...
JOURNAL ENTRY

JUDGMENT ENTRY DENYING THE DEFENDANT’S
12/17/2018 MOTION TO SUPPRESS. O.S.J.
03/27/2019
CPJPO 03/27/2019 17:57:51 /s/
Judge Signature Date
3/27/2019

App. 3
IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
CASE NO. CR 18 632279
JUDGE JOHN P O’DONNELL
____________________________________
THE STATE OF OHIO
)
)
Plaintiff,
)
)
vs.
)
)
DANIEL DEUBLE
)
)
Defendant.
)
____________________________________)
JUDGMENT ENTRY DENYING THE
DEFENDANT’S MOTION TO SUPPRESS
EVIDENCE
John P. O’Donnell, J.:
Daniel Deuble is charged in a four count indictment
with attempted unlawful sexual conduct with a minor,
importuning, disseminating matter harmful to
juveniles and possessing criminal tools. This case
arises from a social media chat that Deuble had on
August 30 and 31, 2018, with an undercover
investigator who was posing as a 15-year-old girl,
where the 21-year-old defendant arranged to meet the
girl for sex.
Deuble filed a motion to suppress evidence gathered
after he was detained by the police on August 31. A

App. 4
hearing on the motion was held March 7, 2019, and
this judgment follows.
The evidence
On August 30, 2018, investigator Justin Rotilli of
the Ohio Internet Crimes Against Children Task Force
was impersonating a 15-year-old named Bella Jane on
a social media application known as Whisper. The app
allows its users to remain anonymous insofar as a user
may sign up under whatever name or handle the user
chooses and biographical information included in the
user’s profile need not bear any resemblance to the
truth.
Rotilli, as Bella, posted a photograph showing the
back of a ponytailed girl gazing across a causeway. The
picture was captioned “Bored!!!!” The post was not
directed at a particular user; any other person on
Whisper could have seen the post, but it would be given
higher priority, i.e. visibility, to users in the same
geographical area as the person making the post, in
this case Northeast Ohio.
Deuble, under the user name EY, initiated a chat
with Bella by responding to her initial post with the
message “Like hung white guys.” According to EY’s
profile, which was visible to Bella, he was 18-20 years
old and from Summit County. Bella replied to EY
saying “LOL what.” In return EY crudely inquired
whether Bella was partial to well-endowed Caucasian
men. The chat continued with EY offering to send Bella
a picture of his penis. She replied saying “I mean I’m
15 I’ve never seen one before.” That mention of her age
came in the fifth text to EY.

App. 5
The chat continued with EY ultimately sending
Bella more than one picture of a turgid phallus. He also
proposed meeting for sexual conduct. Bella, while never
shutting down the chat nor directing it toward explicit
sexual conversation, mentioned her age as 15 at least
twice. Otherwise, her texts were notable only for their
vapidity, absence of sophistication, and disregard for
the usual rules of orthography and grammar.
Additionally, at some point during the chat, EY’s
profile changed to the name 420 and his age changed
from 18-20 to 21-25 years old.
Ultimately Bella and EY arranged to meet at 10:00
a.m. on Friday, August 31, at Kurtz Park near West
130 and Huffman Road in Parma Heights.
That morning, several investigators from the ICAC
and a couple of Parma Heights police officers were at
the park conducting surveillance to see who showed up.
At 10:04 a.m. EY sent the following text to Bella in
response to her asking if he was nearby:
I drove by and there was a cop I’m not trying to
get arrested
There was no testimony at the hearing that any agent
of law enforcement had seen a person suspected of
being EY by then. But the chat continued and EY
eventually agreed to return for the planned
rendezvous.
Deuble appeared at the park shortly before 11:00
a.m. and was noticed by the officers. He was wearing a
t-shirt and shorts and began shooting hoops alone at a
basketball court. There was only one other person at
the court, a middle-aged seeming man who was

App. 6
shooting by himself at a different basket. Otherwise,
the courts and the whole park were empty.
Rotilli was doing surveillance at the park while
continuing the Whisper chat at the same time. Not only
did he see Deuble on the court, but he noticed that
Deuble would go to his phone, which was in the grass
near the court, to look at it each time Rotilli, as Bella,
sent a text to EY. Yet Rotilli did not observe the other
man at the courts using a cell phone.
Since Deuble looked to be about college age, was at
the park alone and was seen using his cell phone while
shooting baskets at the same time that texts on the
Whisper chat were sent and received, Rotilli radioed a
colleague who was closer to the basketball court and
told him to detain Deuble. Soon thereafter Deuble gave
a statement to the investigators and was ultimately
arrested, charged and indicted.
The motion to suppress
Deuble now moves to suppress from evidence at
trial all of the evidence, including his statement and
the contents of his cell phone, gathered by investigators
at Kurtz Park on August 31. As the basis for his
motion, he asserts that he was arrested without
probable cause and that all of the evidence gathered
should be excluded based upon the violation of his
Fourth Amendment right against unreasonable
seizure.
The State of Ohio contends that the initial
encounter and basic questioning of Deuble amount to
a lawful investigative stop and detention based upon
reasonable suspicion, and that, thereafter, his

App. 7
voluntary statement was not a custodial interrogation.
The state further contends that even if the interview
was a custodial interrogation then Deuble was properly
Mirandized and he waived his Fifth Amendment right
to remain silent.
The Fourth Amendment of the United States
Constitution provides:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated, and no warrants shall issue, but upon
probable cause, supported by oath or affirmation,
and particularly describing the place to be searched,
and the persons or things to be seized.
Section 14, Article I, of the Ohio Constitution contains
nearly identical language, and that section has been
held to extend protections in conformity with those of
the federal constitution. State v. Robinette, 80 Ohio St.
3d 234, 238 (1997).
An arrest is a seizure, and it is axiomatic that an
arrest made without a warrant amounts to an
unconstitutional seizure under the Fourth Amendment
unless the arresting officer has probable cause to
believe that an offense has been committed. State v.
Jones, 2d Dist. No. 17382, 1999 Ohio App. LEXIS 504,
6 (Feb. 19, 1999). Probable cause to make an arrest
exists where, at the time of arrest, the facts and
circumstances within the arresting officers’ knowledge,
and of which they had reasonably trustworthy
information, were sufficient to warrant a prudent
person in believing that the suspect had committed or

App. 8
was committing a crime. Beck v. Ohio, 379 U.S. 89, 91
(1964).
To put it another way, it must appear more likely
than not that the person suspected of a crime
committed the crime. Where evidence is discovered as
a result of an arrest not based on probable cause it is
subject to the exclusionary rule and must be
suppressed. State v. Timson, 38 Ohio St. 2d 122, (1974),
paragraph two of the syllabus.
But not every encounter a person has with agents of
law enforcement amounts to an arrest. The police may
briefly detain someone without a warrant, and without
violating the federal and state constitutions, to
investigate their reasonable suspicions that a crime
has been, or is being, committed. Such a detention is
known as a Terry stop, after the decision of the United
States Supreme Court in Terry v. Ohio, 392 U.S. 1
(1968), which held that in justifying an investigative
detention that falls short of a formal arrest, a police
officer must be able to point to specific and articulable
facts which, taken together with rational inferences
from those facts, reasonably warrant the stop.
The first thing to be decided here, then, is whether
the stop of Deuble on the basketball court and
subsequent detention, in handcuffs, over several
minutes was an investigative stop or an arrest. If it
was an investigative stop then it was not
unconstitutional if there was a reasonable suspicion
that Deuble had committed a crime. On the other hand,
if it was an arrest then it was unconstitutional unless
supported by probable cause to believe that Deuble
engaged in criminal conduct.

App. 9
Video from Rotilli’s body worn camera shows that
Deuble was approached from the right side of the
basketball court by one officer as Rotilli came from the
left. He was not handcuffed as he was asked to put
down the basketball and then escorted over a grassy
area to where his car was parked. He was, however,
standing and handcuffed while next to his car as
several officers waited for Rotilli, who had retrieved
Deuble’s phone from the ground near the basketball
hoop. Deuble was then seated on a grassy area near the
parking lot curb as Rotilli questioned him.
Deuble was first asked for his ID and told the police
it was in his bag on the front seat of his car.
Investigator David Frattare got Deuble’s wallet but did
not otherwise search the car at that point. In the
meantime, Rotilli sent a test message on Whisper
which pinged a notification on Deuble’s phone, thereby
confirming that Deuble was the other party to the chat
with Bella.
The officers then confirmed Deuble’s name, age and
address and asked what he was doing at the park.
Deuble’s response – “I’m looking to play some pick up”
– did not make much sense given Deuble’s far away
address in Northfield Center and that only one other
person was on the courts and Deuble was not playing
basketball with him. Rotilli then inquired whether
Deuble was in college and what he was studying. The
whole time Deuble was surrounded by at least four
other law enforcement officers. Finally, Deuble asked
“What’s going on?” and Rotilli said:
Here’s what we’re gonna do. We have a truck
over there. It’s got an interview room in the back.

App. 10
It’s gonna be air conditioned, it’ll be a little bit more
private. I’d like to sit down and talk to you real
quick, explain to you what’s going on. How’s that
sound?
Deuble replied “sure” and was escorted across the
parking lot to the interview truck. His handcuffs were
removed while outside of the truck and then he went in
to begin his interview. The entire initial encounter –
from the time he was approached on the basketball
court to the time the handcuffs were removed – lasted
less than six minutes.1
A “seizure” occurs when an individual is detained
under circumstances in which a reasonable person
would not feel free to leave the scene. State v. Raine, 8th
Dist. No. 90681, 2008-Ohio-5993, ¶18. Both an
investigatory stop and an arrest thus constitute
“seizures” within the meaning of the Fourth
Amendment. Id. In order to be termed an
“investigatory stop,” the seizure must be temporary,
lasting no longer than needed to effectuate the purpose
of the stop, and the investigation must be conducted by
the least intrusive means possible to allow the officer
to verify or dispel the officer’s suspicion in a short
period of time. Id. If the detention exceeds the bounds
of an investigatory stop, it may be tantamount to an
arrest. Id.
But the fact that a person was not free to leave is
not outcome determinative because no suspect is ever

1

From approximately 14:54:12 until 15:00:10 on the time stamp on
Rotilli’s body worn camera video.

App. 11
free to leave an investigatory stop. Id., ¶22. Similarly,
the right to make an investigatory stop necessarily
carries with it the right to use some degree of physical
coercion or threat thereof to effect it. Graham v.
Connor, 490 U.S. 386, 396 (1989).
Considering all the evidence here, the initial seizure
of Deuble was an arrest. First, he was not free to leave:
the handcuffs alone communicated that message.
Second, Frattare admitted in his hearing testimony
that Deuble, to the extent that he may not already
have been under arrest, was going to be arrested once
a test message over Whisper from Rotilli’s phone
alerted on Deuble’s phone, thus demonstrating that
Deuble was the other party to the Whisper
conversation.2 Third, Deuble was wearing only gym
shorts and a t-shirt and had been patted down for
weapons, yet he was still kept handcuffed, ordered to
sit on the ground, circled by at least four fully outfitted
police officers, and cut off from access to his phone and
car.
Since Deuble’s detention amounted to an arrest, it
was only lawful if supported by probable cause. To find
probable cause, the law does not require that every
conceivable explanation other than a suspect’s illegal

2

It was unclear from the body camera video whether the test
message done in the parking lot while Deuble was handcuffed was
the only test message; Rotilli may have sent a test message as he
was walking from the basketball court to the parking lot. But
regardless of how many test messages were sent, no more than a
couple of minutes elapsed from the officers’ initial approach to the
defendant and the strong corroboration provided by a test Whisper
message.

App. 12
conduct is ruled out. United States v. Strickland, 144
F.3d 412, 416 (6th Cir. 1998). Instead, a court need only
consider whether there are facts that, given the factual
and practical considerations of everyday life, could lead
a reasonable person to believe that an illegal act has
occurred or is about to occur. Id.
That standard was met here.
When Deuble was approached on the basketball
court Rotilli had dozens of messages over Whisper from
a person purporting to be a white male around 18-25
years old. The messages included pictures of a slender
white man, a description that fit Deuble. The person
agreed to meet Bella at Kurtz Park on Friday morning.
The person texted Bella “I’m at the park” at a time
when only two people could be seen by the officers at
the park, and only Deuble was using his cell phone.
Moreover, he was observed using that phone at the
same time Bella was sending and receiving texts.
It is true, as argued by Deuble, that Rotilli and the
other investigators had no reason to know whether
anything said by EY in the chat was true. For example,
EY said he would be in a green Honda and Deuble did
not arrive in a green Honda. He also said his name is
Gabe, and that proved incorrect. Nevertheless, someone
persisted in dozens of texts over two days in persuading
Bella to meet for sex and, when the time set for the
assignation arrived, only two people could have been
the other party to the chat, and of those two only
Deuble was using his phone at the same time EY and
Bella were sending and getting messages. Under those
circumstances it would be ludicrous for the police to
ignore Deuble.

App. 13
This case bears some resemblance to situations
where police receive anonymous tips that a crime is
being committed. Typically, an anonymous tip by itself
will not support a finding of probable cause; instead,
the totality of circumstances, including the tip, must be
examined to determine whether probable cause exists.
Illinois v. Gates, 462 U.S. 213, 238 (1983). In essence,
Rotilli was tipped that a young adult man was going to
Kurtz Park that Friday morning to meet an underage
girl for sex. The tip was corroborated by circumstances
when Deuble showed up at around the appointed time
and was seen using his phone at the same time the
unknown suspect was communicating with the girl
over a cell phone app.
Conclusion
Because Daniel Deuble was arrested upon probable
cause to believe that he had committed, or intended to
commit, a crime,3 his motion to suppress is denied.

3

Putting aside count one for attempted unlawful sexual conduct
with a minor, where a guilty finding will require a jury to agree
that the texts combined with Deuble’s appearance at the park
amounted to a substantial step toward engaging in sexual conduct
with a minor over 13 but under 16, the crimes alleged in the other
counts were likely complete by the time of Deuble’s arrest. Count
two for importuning requires a solicitation to engage in sexual
activity via a telecommunications device, and all of the text
communications were complete by the time Deuble was arrested.
Count three for disseminating matter harmful to juveniles
requires proof that a defendant deliver obscene material to a
juvenile, and by the time he was arrested he had already texted all
of the arguably obscene images. One of the criminal tools allegedly
possessed in count four was the cell phone, and by the time of his

App. 14
IT IS SO ORDERED:
/s/ ___________________
Judge John P. O’Donnell

March 27, 2019
Date

arrest the defendant had used the phone to coax Bella to the park
for sex and to send the purportedly obscene images.

App. 15
SERVICE
A copy of this judgment entry was emailed to the
following on 3/28, 2019:
Melissa Riley, Esq.
mriley@prosecutor.cuyahogacounty.us
Attorney for the plaintiff State of Ohio
Justin M. Weatherly,Esq.
JUSTINWEATHERLY@YAHOO.COM
Attorney for defendant Daniel Deuble
/s/
Judge John P. O’Donnell

App. 16

APPENDIX C
COURT OF APPEALS OF OHIO
EIGHTH APPELLATE DISTRICT
COUNTY OF CUYAHOGA
No: 108814
[Filed: August 6, 2020]
____________________________________
STATE OF OHIO,
)
)
Plaintiff-Appellee,
)
)
v.
)
)
DANIEL DEUBLE,
)
)
Defendant-Appellant.
)
____________________________________)
JOURNAL ENTRY AND OPINION
JUDGMENT: REVERSED AND REMANDED
RELEASED AND JOURNALIZED: August 6, 2020
Criminal Appeal from the Cuyahoga County Court of
Common Pleas
Case No. CR-18-632279-A

App. 17
Appearances:
Michael C. O’Malley, Cuyahoga County
Prosecuting Attorney, and Melissa Riley,
Assistant Prosecuting Attorney, for appellee.
Henderson, Mokharti & Weatherly and Justin
Weatherly, for appellant.
PATRICIA ANN BLACKMON, J.:
{¶ 1} Daniel Deuble (“Deuble”) appeals from his
convictions of attempted unlawful sexual conduct with
a minor, importuning, disseminating matter harmful to
juveniles, and possessing criminal tools and assigns
error for our review:
I. The trial court erred in denying appellant’s
motion to suppress when it found that
appellant’s arrest was predicated on probable
cause.
{¶2} Upon review, we find that the police did not
have probable cause to arrest Deuble without a
warrant, and any evidence obtained following his
arrest, including information on his cell phone and his
confession, should have been suppressed. Accordingly,
we reverse the trial court’s judgment. The apposite
facts follow.
Facts and Procedural History
{¶3} On August 30, 2018, special investigators with
the Cuyahoga County Prosecutor’s Office Internet
Crimes Against Children Task Force (“ICAC”) set up an
undercover operation looking for individuals who were
seeking to engage in sexual activity with minors. An

App. 18
undercover investigator posed as a 15-year-old girl
using the social media application “Whisper.” An
individual using the moniker “EY” began instant
messaging with the investigator, and the conversation
was sexual in nature. The two arranged to meet in a
local park the next day, August 31, 2018, for a sexual
encounter. At the meeting place, police officers saw
Deuble checking his cell phone, approached and
handcuffed him, and searched his phone. This search
revealed that Deuble was, in fact, EY.
{¶ 4} On September 12, 2018, the grand jury
indicted Deuble for one count of attempted unlawful
sexual conduct with a minor in violation of R.C.
2923.02 and 2907.04(A), one count of importuning in
violation of R.C. 2907.07(D)(2), one count of
disseminating matter harmful to juveniles in violation
of R.C. 2907.31(A)(1), and one count of possessing
criminal tools in violation R.C. 2923.24(A).
{¶ 5} Deuble pled not guilty to the charges and, on
December 17, 2018, filed a motion to suppress, arguing
ICAC officers lacked probable cause to arrest him. The
trial court found the ICAC investigators and Parma
Heights police had probable cause to arrest Deuble and
denied the motion to suppress evidence. Deuble
subsequently pled no contest to the charges in the
indictment. The court sentenced him to 40 days in the
Cuyahoga County jail and ordered him to serve two
years of community control on each of the four counts
in the indictment. Finally, the court classified him as
a Tier II sex offender. This appeal followed.

App. 19
Hearing Testimony
{¶ 6} The following testimony was presented at a
hearing on the motion to suppress:
{¶ 7} Justin Rotili (“Rotili”) testified that he is a
special investigator for ICAC. On August 30, 2018,
Rotili posted a message on a popular social media
application known as Whisper to find individuals
seeking to have sex with minor children. Whisper
allows users to remain anonymous and utilizes the
location of an individual’s device to interact with people
nearby. Posing as a 15-year-old girl named
“bella_jane,” Rotili posted a picture of an adolescent
girl on a pier with a message that read “BORED!!!” EY
responded and identified himself as an 18-year old
“hung white guy.” Rotili, continuing to pose as
“bella_jane,” responded “LOL what?” EY clarified and
asked if “bella_jane” liked “white men with big dicks.”
A series of messages between Rotili and EY ensued,
and the entire conversation was admitted into evidence
as State’s exhibit No. 1.
{¶ 8} Rotili identified himself as a 15-year-old girl
early in the conversation. Despite this information, EY
sent “bella_jane” photographs of his penis and asked if
“bella_jane” would like to see his “nine inches.” Rotili
sent photographs of a teenage girl, whom he
represented as his online persona. EY replied with a
message and an emoticon of a purple devil that read:
“I’d stretch your tight little virgin pussy wide.”
Thereafter, EY sent two photographs of his erect penis,
one next to a Rubik’s cube and the other photograph
with a Post-It note on his penis with the name Bella
and a hand-drawn picture of cat on it. The conversation

App. 20
ended for the night when EY made plans to meet
“Bella” at her home the following morning when her
parents were not around.
{¶ 9} The conversation resumed the next morning.
EY asked “Bella” if she was still “okay with me coming
over, us making out, me eating your pussy out, sucking
my cock, and then losing your virginity.” Rotili,
maintaining the identity of “bella_jane,” responded in
the affirmative and suggested that she meet him first
at Kurtz Park in Parma Heights, which was located
near her house, so that his car would not be observed
in her driveway.
{¶ 10} EY informed “Bella” that he would arrive
shortly before 10:00 a.m. Undercover ICAC
investigators and Parma Heights police began
surveilling Kurtz Park at approximately 9:00 a.m. EY
sent a message to “bella_jane” informing her that he
observed the police when he arrived at the park and
asked if he should return later. “[B]ella_jane”
responded, “yes, please!!!,” and EY agreed to return to
the park around 11:00 a.m. EY later sent an instant
message that he was at the park.
{¶ 11} EY told “bella_jane” that he drove a green
Honda. Officer Rotili testified that after he received the
message that EY was at the park, he began looking for
him but did not have a detailed description of EY’s
physical appearance other than that he was a thin
white male. Rotili further stated that he did not
observe a green Honda as expected, but he saw two
white males on the basketball court. The younger
looking white male, later identified as Deuble, looked

App. 21
at his phone every time EY sent or received messages
from “bella_jane.” Rotili explained:
I had noticed one of the – the defendant would
stop playing basketball, walk over to his phone,
and I would get a response immediately after.
And I picked that up and so I sent a couple of
more text messages. And every time the suspect
would put his phone down[,] I received a text
message from him. That’s when I knew that
[he]_was going to be our person.
{¶ 12} Having identified Deuble as using his cell
phone at the same time as EY, officers moved in and
handcuffed him. Officer Rotili picked Deuble’s phone up
off the ground and sent a test message to verify that
Deuble was the individual he had been corresponding
with. The “test” message went through to Deuble’s
phone and confirmed that he was the person planning
to meet “bella_jane” at the park. Meanwhile, another
officer retrieved his wallet and state identification card
from his vehicle, which was nearby. After confirming
Deuble’s identity, the officers escorted him to a police
vehicle where he was advised of his Miranda rights.
Rotili informed Deuble that the doors to the vehicle
were unlocked and that he was free to leave if he did
not want to talk with police. Deuble indicated that he
understood his rights and admitted that he had come
to Kurtz Park for the purpose of having sex with a 15year-old girl.
Law and Analysis
{¶ 13} In his sole assigned error, Deuble argues the
trial court erred in denying his motion to suppress. He

App. 22
contends that the ICAC investigators and Parma
Heights police lacked probable cause to arrest him
without a warrant and that any evidence obtained
following his arrest, including his confession, should
have been suppressed.
{¶ 14} In State v. Burnside, 100 Ohio St.3d 152,
2003-Ohio-5372, 797 N.E.2d 71, the Ohio Supreme
Court set forth the standard of review of a ruling on a
motion to suppress as follows:
Appellate review of a motion to suppress
presents a mixed question of law and fact. When
considering a motion to suppress, the trial court
assumes the role of trier of fact and is therefore
in the best position to resolve factual questions
and evaluate the credibility of witnesses. State
v. Mills (1992), 62 Ohio St.3d 357, 366, 582
N.E.2d 972. Consequently, an appellate court
must accept the trial court’s findings of fact if
they are supported by competent, credible
evidence. State v. Fanning (1982), 1 Ohio St.3d
19, 1 OBR 57, 437 N.E.2d 583. Accepting these
facts as true, the appellate court must then
independently determine, without deference to
the conclusion of the trial court, whether the
facts satisfy the applicable legal standard. State
v. McNamara (1997), 124 Ohio App.3d 706, 707
N.E.2d 539.
Id. at ¶ 8.
{¶ 15} The Fourth amendment to the United States
Constitution protects “the right of the people to be
secure in their persons, houses, papers, and effects,

App. 23
against unreasonable searches and seizures,” and
provides that “no warrants shall issue, but upon
probable cause, supported by oath or affirmation, and
particularly describing the place to be searched and the
persons or things to be seized.” Ohio Constitution,
Article I, Section 14, is nearly identical to its federal
counterpart. State v. Kinney, 83 Ohio St.3d 85, 87,
1998-Ohio-425, 698 N.E.2d 49.
{¶ 16} The warrant requirement, however, is
subject to a few specifically established and welldelineated exceptions. Katz v. United States, 389 U.S.
347, 357, 88 S.Ct. 507, 19 L.Ed.2d 576 (1967). “An
arrest without a warrant is constitutionally invalid
unless the arresting officer had probable cause to make
the arrest.” State v. Werber, 8th Dist. Cuyahoga No.
93716, 2010-Ohio-4883, ¶36. The standard for probable
cause to justify an arrest is “whether at that moment
the facts and circumstances within [the officer’s]
knowledge and of which they had reasonably
trustworthy information were sufficient to warrant a
prudent man in believing that the [defendant] had
committed or was committing an offense.” Beck v. Ohio,
379 U.S. 89, 91, 85 S.Ct. 223, 13 L.Ed.2d 142 (1964).
{¶ 17} This court has held that “[p]robable cause
requires more than a generalized suspicion of criminal
conduct, although less certainty than proof beyond a
reasonable doubt. Probable cause must exist at the
time of the arrest; it cannot be established later by
evidence gathered from the suspect after his illegal
arrest.” (Citations omitted) Werber at ¶37.
{¶ 18} Deuble contends he was illegally arrested as
soon as officers handcuffed him because the police

App. 24
lacked both probable cause and a warrant to arrest
him. The state argues, however, that Deuble was not
under arrest when he was handcuffed and that they
were authorized to detain him for investigatory
purposes under Terry v. Ohio, 392 U.S. 1, 30, 88 S.Ct.
1868, 20 L.Ed.2d 889 (1967).
{¶ 19} In the journal entry denying Deuble’s motion
to suppress, the trial court found that “[c]onsidering all
the evidence here, the initial seizure of Deuble was an
arrest.” The trial court based this finding on video from
one of the officer’s body cams showing, and officer
testimony explaining, that Deuble was placed in
handcuffs, sat on the ground, and surrounded by
multiple police officers. This court must accept this
factual finding if it is supported by competent and
credible evidence in the record.
{¶ 20} The trial court synopsized the evidence
presented at the hearing concerning Deuble’s
detainment as follows:
Video from Rotilli’s [sic] body worn camera
shows that Deuble was approached from the
right side of the basketball court by one officer
as Rotilli came from the left. He was not
handcuffed as he was asked to put down the
basketball and then escorted over a grassy area
to where his car was parked. He was, however,
standing and handcuffed while next to his car as
several officers waited for Rotilli, who had
retrieved Deuble’s phone from the ground near
the basketball hoop. Deuble was then seated on
a grassy area near the parking lot curb as Rotilli
questioned him.

App. 25
Deuble was first asked for his ID and told the
police it was in his bag on the front seat of his
car. Investigator David Frattare got Deuble’s
wallet but did not otherwise search the car at
that point. In the meantime, Rotilli sent a test
message on Whisper which pinged a notification
on Deuble’s phone, thereby confirming that
Deuble was the other party to the chat with
Bella.
The officers then confirmed Deuble’s name,
age and address and asked what he was doing at
the park. * * * The whole time Deuble was
surrounded by at least four other law
enforcement officers. Finally, Deuble asked
“What’s going on?” and Rotilli said: [“]Here’s
what we’re gonna do. We have a truck over
there. It’s got an interview room in the back. It’s
gonna be air conditioned, it’ll be a little bit more
private. I’d like to sit down and talk to you real
quick, explain to you what’s going on. How’s that
sound?[”].
Deuble replied “sure” and was escorted across
the parking lot to the interview truck. His
handcuffs were removed while outside of the
truck and then he went in to begin his interview.
The entire initial encounter – from the time he
was approached on the basketball court to the
time the handcuffs were removed – lasted less
than six minutes.
{¶ 21} Rotili testified that Deuble was handcuffed
for the following reasons: “Just temporary detainment
so we can further our investigation. Officer safety.”
However, there is no evidence supporting a belief that

App. 26
officer safety was a heightened concern in the case at
hand. Furthermore, the following colloquy occurred
between the court and the state’s witness, special
investigator David Frattare (“Frattare”):
THE COURT: Let’s say that Mr. Deuble had
declined a statement, didn’t give you any further
information from the time he was on the ground
there where we just saw. Based on what you
know you would have arrested him anyway,
correct?
THE WITNESS: I think after he had identified
who he was, where he was from, and also the
test message that we sent to his phone, I think
at that point we had a pretty good idea we were
going to.
THE COURT: That’s what I was going to.
At least through the test message, regardless of
what he told you or didn’t tell you, if he chose
not to make a statement in the ensuing hour or
so, he was going to be arrested? You felt you had
probable cause to believe that he committed on
or more of the crimes with which he was
ultimately charged?
THE WITNESS: After we saw the message on
the phone and the ID, yes.
{¶ 22} Frattare further testified that the message in
question “was probably sent while [Deuble] was on the
ground. I think it occurred maybe as he was going to
the van, if I’m remembering that.” Asked if this
message was “sent once the person is, well arrested or

App. 27
detained,” Frattare answered, “Yes.” Frattare also
testified that, after Deuble was handcuffed, Rotili told
Deuble the police were going to take him to the van to
inteiview him. At that point, Deuble was led in
handcuffs to the van.
{¶ 23} In Cleveland v. Morales, 8th Dist. Cuyahoga
No. 81083, 2002-Ohio 5862, ¶ 15, this court reversed a
trial court’s denial of the defendant’s motion to
suppress, finding that “it is abundantly clear that the
appellant’s freedom was deprived to an extent
sufficient to create a ‘custodial interrogation.”’
In questioning the appellant, Officer Gulas
handcuffed him and restricted his freedom of
movement. In being handcuffed and isolated,
there is no question that the appellant
considered his freedom of movement to be
restricted. Further, the appellant was restricted
to a single room in his girlfriend’s house.
Moreover, the fact that the officer refused to
allow the appellant to leave the room prior to
being questioned further exacerbated the
appellant’s belief that he was not free to leave.
Last, we note that there are situations where
officer safety is of concern and the handcuffing of
a suspect may be warranted, but this matter
fails to reach that level since the appellant was
not armed, nor did he pose a threat to the
responding officers.
Id.
{¶ 24} Upon review, we agree with the trial court
that Deuble was arrested. Deuble was handcuffed,

App. 28
seated on the ground, and surrounded by four or more
police officers. Rotili picked up Deuble’s phone, which
was on the ground, and searched it. The officers then
walked Deuble, who was still handcuffed, to the van. A
reasonable person would not feel free to leave under
these circumstances. Therefore, this appeal is
concerned with probable cause, and the standard of
reasonable suspicion associated with a Terry stop is not
applicable here. See United States v. Mendenhall, 446
U.S. 544, 554, 100 S.Ct. 1870, 64 L.Ed.2d 497 (1980)
(“a person has been ‘seized’ within the meaning of the
Fourth Amendment only if, in view of all of the
circumstances surrounding the incident, a reasonable
person would have believed that he was not free to
leave”).
{¶ 25} The next step an appellate court must take
in reviewing a motion to suppress is to determine, de
novo, whether the facts satisfy the applicable legal
standard. The trial court in the case at hand
determined that “[s]ince Deuble’s detention amounted
to an arrest, it was only lawful if supported by probable
cause.” The trial court analogized this case to Illinois
v. Gates, 462 U.S. 213, 103 S.Ct. 2317, 76 L.Ed2d 527
(1983):
This case bears some resemblance to situations
where police receive anonymous tips that a
crime is being committed. Typically, an
anonymous tip by itself will not support a
finding of probable cause; instead, the totality of
circumstances, including the tip, must be
examined to determine whether probable cause
exists. * * * In essence, Rotilli was tipped that a

App. 29
young adult man was going to Kurtz Park that
Friday morning to meet an underage girl for sex.
The tip was corroborated by circumstances when
Deuble showed up at around the appointed time
and was seen using his phone at the same time
the unknown suspect was communicating with
the girl over a cell phone app.
{¶ 26} On appeal, Deuble is challenging the search
of his cell phone. In State v. Smith, 124 Ohio St.3d 163,
2009-Ohio-6426, 920 N.E.2d 949, ¶ 24, the Ohio
Supreme Court held that “because an individual has a
privacy interest in the contents of a cell phone that
does beyond the privacy interest in an address book or
pager, an officer may not conduct a search of a cell
phone’s contents incident to a lawful arrest without
first obtaining a warrant.” The Ohio Supreme Court
rephrased its holding in the same opinion: “We hold
that the warrantless search of data within a cell phone
seized incident to a lawful arrest is prohibited by the
Fourth Amendment when the search is unnecessary for
the safety of law-enforcement officers and there are no
exigent circumstances.” Id. at ¶ 29.
{¶ 27} The evidence in the instant case shows that
the suspect initially agreed to meet at Kurtz Park at
10:00 a.m. on August 31, 2018. The meeting time was
later changed to 11:00 a.m. The suspect described
himself as a thin white male, 21-25 years old, driving
a green Honda. At approximately 11:00 a.m., the
suspect sent a message, via the Whisper app, that he
had arrived at the park.
{¶ 28} The investigating officers never saw a green
Honda, but observed a young white male playing

App. 30
basketball at the park and an older white male
separately playing basketball at the park. The officers
did not see the older male use a cell phone during this
time; however, they did see the younger male “picking
up his phone texting, corresponding with our – as our
undercover texts we start to see a correspondence with
the individual that’s on the basketball court picking up
his phone and replying or text messaging his own.”
{¶ 29} After observing Deuble check his phone three
times, the officers handcuff him with his arms behind
his back, sit him on the ground, and surround him. It
was not until after Deuble’s arrest that the officers sent
a “test” message to the suspect’s phone to confirm
whether it was, indeed, Deuble’s phone. In fact, Rotili
testified as follows: “When I picked [Deuble’s] phone up
he was already in handcuffs.” He further testified that
it was not until the test message was received on
Deuble’s phone that the police had probable cause to
arrest Deuble.
{¶ 30} Upon review, we find that the probable cause
did not occur until after the police arrested Deuble.
Prior to Deuble’s arrest, the police knew that he was
present at the meeting place, and he was using a cell
phone at the same time the suspect was using a cell
phone. He matched the suspect’s description, but that
description was vague, indicating race, gender, a “thin”
build, and approximate age. Furthermore, there was no
sign of the green Honda the suspect was purportedly
driving.
{¶ 31} As the trial court noted in its journal entry
denying Deuble’s motion to dismiss, the “totality of
circumstances” prior to Deuble’s arrest consisted of him

App. 31
showing up at the meeting place and using his phone.
The totality of the circumstances test, set forth in
Illinois v. Gates, 462 U.S. 213, 103 S.Ct. 2317, 76
L.Ed.2d 527 (1983), does not give the police the
authority to arrest a person and then search that
person’s phone for probable cause to support the arrest.
See, e.g., State v. Gooden, 8th Dist. Cuyahoga No.
88174, 2007-Ohio-2371, ¶ 29 (“Probable cause must
exist at the time of the arrest; it cannot be established
later by evidence gathered from the suspect aftet his
illegal arrest”).
{¶ 32} Similar to the Ohio Supreme Court’s holding
in Smith, the United States Supreme Court determined
that cell phone owners have a heightened privacy
interest in the data stored on their devices.
Modern cell phones are not just another
technological convenience. With all they contain
and all they may reveal, they hold for many
Americans “the privacies of life,” [Boyd v. United
States, 116 U.S. 616, 630, 6 S.Ct. 524, 29 L.Ed.
746 (1886)]. The fact that technology now allows
an individual to carry such information in his
hand does not make the information any less
worthy of the protection for which the Founders
fought. Our answer to the question of what
police must do before searching a cell phone
seized incident to an arrest is accordingly simple
– get a warrant.
Riley v. California, 573 U.S. 373, 403, 134 S.Ct. 2473,
189 L.Ed.2d 430 (2014).

App. 32
{¶ 33} The court erred by denying Deuble’s motion
to suppress, and his sole assigned error is sustained.
{¶ 34} Judgment reversed and case remanded for
further proceedings consistent with this opinion.
It is ordered that appellant recover from appellee
costs herein taxed.
The court finds there were reasonable grounds for
this appeal.
It is ordered that a special mandate issue out of this
court directing the common pleas court to carry this
judgment into execution.

App. 33
A certified copy of this entry shall constitute the
mandate pursuant to Rule 27 of the Rules of Appellate
Procedure.
/s/ Patricia Ann Blackmon____________
PATRICIA ANN BLACKMON, JUDGE
KATHLEEN ANN KEOUGH, J., CONCURS;
EILEEN T. GALLAGHER, A.J., DISSENTS
WITH SEPARATE OPINION
EILEEN T. GALLAGHER, A.J., DISSENTING:
{¶ 35} I respectfully dissent because I believe the
officers had probable cause to arrest Deuble, and I
would affirm the trial court’s judgment.
{¶ 36} A warrantless arrest is constitutionally valid
if, at the time of the arrest, the facts and circumstances
within the officer’s knowledge were sufficient to
warrant a prudent person to believe that the suspect
had committed an offense. Beck v. Ohio, 379 U.S. 89,
91, 85 S.Ct. 223, 13 L.Ed.2d 142 (1964). A warrantless
arrest does not require the officer’s absolute knowledge
that a crime has been committed; it requires only a
reasonable belief based on the totality of the
circumstances. State v. Timson, 38 Ohio St.2d 122, 127,
311 N.E.2d 16 (1974).
{¶ 37} Probable cause is a common-sense standard
that requires only showing that a probability, rather
than an actual showing, that criminal activity existed.
Texas v. Brown, 460 U.S. 730, 103 S.Ct. 1535, 75
L.Ed.2d 502 (1983); Illinois v. Gates, 462 U.S. 213, 103
S.Ct. 2317, 76 L.Ed.2d 527 (1983). In other words,
probable cause does not require conclusive proof of

App. 34
guilt beyond a reasonable doubt; it merely requires
facts establishing “that it is more likely than not that
a defendant is committing or has committed a crime.”
State v. Oloye, 10th Dist. Franklin No. 17AP-902, 2018Ohio-3182, ¶ 9.
{¶ 38} Although the officers did not have a detailed
description of Deuble’s physical appearance, they knew
he was a young, thin, white male. There were only two
white males at the park at the time EY indicated that
he was there to meet “bell_jane.” The officers sent
several text messages to EY and watched to see which
of the two white males would respond in order to
correctly identify the perpetrator. Officer Rotili
testified that Deuble picked up his phone every time
Rotili sent him a message under the guise of
“bella_jane,” and Rotili received a response to his text
messages as soon as Deuble put his phone back down.
After repeating this test several times, Rotili concluded
“That’s when I knew that [he] was going to be our
person.” (Tr. 138.)
{¶ 39} I believe these facts established that the man
responding to Officer Rotili’s text messages was more
likely than not the individual planning to have sex
with an underage girl. Therefore, I believe the officers
had probable cause to arrest Deuble under these
circumstances, and I would affirm the trial court’s
judgment.

App. 35

APPENDIX D
Court of Appeals of Ohio, Eighth District
County of Cuyahoga
Nailah K. Byrd, Clerk of Courts
COA NO. 108814
LOWER COURT NO. CR-18-632279-A
COMMON PLEAS COURT
MOTION NO. 540603
Date: 09/22/20
____________________________________
STATE OF OHIO
)
)
Appellee
)
)
-vs)
)
DANIEL DEUBLE
)
)
Appellant
)
____________________________________)

JOURNAL ENTRY

App. 36
Motion by appellee for reconsideration is denied.

Adm. Judge, Eileen T. Gallager, Dissents
Judge Kathleen Ann Keogh, Concurs
/s/Patricia Ann Blackmon
Patricia A. Blackmon
Judge
RECEIVED FOR FILING
09/22/2020 11:21:13
NAILAH K. BYRD, CLERK
Docket ID: 114525299

